DOE F 1325.8




United States Government                                                             Department of Energy

Memorandum
    DATE:       July 29, 2005

REPLY TO
 ATTN TO:       IG-34 (A05HQ002)                                            Audit Report No. OAS-L-05-10
SUBJECT:        Agreed-Upon Procedures for Federal Payroll

        TO: Director, Office of Management, Budget, and Evaluation/Chief Financial Officer, ME-1

                INTRODUCTION AND OBJECTIVE

               The Office of Management and Budget (OMB) Bulletin No. 01-02, "Audit Requirements for
               Federal Financial Statement," dated October 16, 2000, requires an annual audit of civilian
               payroll of executive departments and other Government agencies. Auditors are required to
               follow the agreed-upon procedures in Appendix I-1 of OMB Bulletin No. 01-02, to assess the
               reasonableness of life insurance, health benefits, and retirement withholdings and
               contributions.

               In 2005, the Department of Energy (Department) used the Defense Finance and Accounting
               Service (DFAS) to process its payroll. For this audit of civilian payroll, the Department of
               Defense (DoD) Office of Inspector General (OIG) is the'principal auditor. Our office
               performed the agreed-upon procedures under a Memorandum of Understanding with the
               DoD OIG. The purpose of this audit was to determine whether life insurance, health benefits,
               and retirement withholdings and contributions for selected DOE employees' were reasonable
               and accurate. The audit methodology is described in an attachment to this report.

               CONCLUSIONS AND OBSERVATIONS

               With minor exceptions, we found that life insurance, health benefits, and retirement
               withholdings and contributions for Department employees' were reasonable and accurate.
               However, due to an administrative error by the Savannah River Operations Office, one
               Savannah River employee's withholding for a life insurance premium under the Federal
               Employees' Group Life Insurance (FEGLI) program was inaccurate. There were also two
               employees whose life insurance and retirement withholdings were based on miscalculations
               and rounding errors by DFAS. These errors were minor and the details omitted from this report
               because they were outside of the Department's control.

               We referred the error regarding the Savannah River employee to the Director of Human
               Resources Management and Development Division at the Savannah River Operations Office,
               who indicated that the error would be corrected in a manner that would not impact the
               employee.
Since this report contains no recommendations, no response is required. -We appreciate the
cooperation of your staff during our review.




                                              Rickey   . Hass
                                              Assistant Inspector General for
                                                Financial, Technology, and Corporate Audits
                                              Office of Audit Services
                                              Office of Inspector General

Attachment

cc:   Team Leader, Audit Liaison, ME-100
      Audit Liaison, SR




                                        -2-
                                                                                         Attachment

SCOPE AND METHODOLGY

We reviewed amounts withheld and contributed by DOE employees for the pay period ending
October 16, 2004, in accordance with procedures under the Memorandum of Understanding
with the DoD OIG and steps 3 - 5 in Appendix I-1 of OMB Bulletin No. 01-02. The audit was
performed from April 28 to May 31, 2005 at program offices in Germantown, MD;
Washington, D.C.;.Morgantown, WV; Albuquerque, NM; Richland, WA; Idaho Falls, ID; and
Aiken, SC; and at the Western Area Power Administration in Lakewood, CO; Southeastern
Power Administration in Elberton, GA; and Southwestern Power Administration in
Jonesboro, AR.

To accomplish the audit objective, we:

     *   Obtained a sample of 45 DOE employees, of which 25 had retirement, health benefits
         and life insurance; 10 had no health benefits; and 10 had no life insurance. This
         sample was randomly selected and provided to us by the DoD OIG;

     *   Reviewed OMB Bulletin No.01-02, "Audit Requirements for Federal Financial
         Statement," Appendix I-1 Agreed-Upon Procedures;

     *   Contacted the responsible personnel official at each site to obtain copies of
         information in each employee's Official Personnel File (OPF);

     *   Reviewed OPFs and obtained copies of employees' Notification of Personnel Action
         (SF-50); Health Benefit election form (SF-2809); Federal Employees' Group Life
         Insurance (FEGLI) election form (SF-2817); and Thrift Saving Plan election form
         (TSP-1);

     *   Calculated gross pay, health benefits, life insurance, and retirement withholdings and
         contributions for accuracy;

     *   Analyzed each document to verify whether employees' withholdings and contributions
         were consistent with DFAS payroll data;

     *   Analyzed each document for anomalies;

     * Held meetings via the telephone with Human Resources Officers and Personnel
       Specialists responsible for maintaining OPF's at each site to request additional
       documents; and,


                                             -3-
      *   Summarized the results of our analysis of each of the 45 sample items and provided
          the results to the DoD OIG.

We conducted the audit in accordance with generally accepted Government auditing standards
for financial audits. Our test work was limited to the procedures listed under the Memorandum
of Understanding and contained in Appendix I-1 of OMB Bulletin No. 01-02. Because our
review was limited, it would not necessarily have disclosed all internal control deficiencies that
may have existed at the time of our audit.

We discussed the issues in this report with the Director, Energy Finance and Accounting
Service on July 21, 2005.




                                                      S4-



                                           -4-
.08/19/05        08:42 FAX 301 903 4656        _        .CAPITAL   REGION              - STEPHANIE               I.001




5.8
(08.93)
United States Government                                                                    Department of Energy


Memorandum
          DATE      AUG 1 0O
  REPLY TO
   ATTN OF:      IG-34 (A05HQ002)

  SUBJECT: Final Report Package for "Agreed-Upon Procedures for Federal Payroll"

           TO:   Linda J. Snider, Assistant Inspector General, Audit Planni:g & Administration l

                 Attached is the required final report package on the subject audit. The pertinent details are:

                 1. Actual Staff days:             49.8

                     Actual Elapsed days:          92

                 2. Names of OIG and/or contractor audit staff:

                         Assistant Director:       Sarah Gamage
                         Team Leader:              Brad Milliron
                         Auditor-in-Charge:        LaNitra Brundage

                 3. Coordination with Investigations and Inspections:

                     Coordination was done as part of the annual financial statement audit.




                                                                    ickey R.     s
                                                                   Assistant Inspector General
                                                                   Financial, Technology, and Corporate Audits
                                                                   Office of AL.dit Services
                                                                   Office of Inspector General
          Attachments:
          1. Final Report
          2. Monetary Impact Report
          3. Audit Project Summary Report
          4. Audit Database Information Sheet
08/19/05   08:43 FAX 301 903 4656                       CAPITAL REGION                    -» STEPHANIE                             ]006




                             MONETARY IMPACT OF REPORT NO.: OAS-L-05-10


           1. Title of Audit:       Agreed-Upon Procedures for Federal Payroll

           2. Division:             Financial. Technology, and Corporate Audits

           3. Project No.:          A05H0002

                 4. Type of Audit:

                   Financial:         X                                Performance:
                      Financial Statement              X                 Economy and Efficiency
                      Financial Related                                  Program Results
                  Other (specify type):

           5. Please report monetary savings identified in the report using applicable columns.
           Provide additional explanations of audited activities/locations in Section No. 6 -
           Remarks.

                                                                                                               MGT.                POTENTIAL
                      FINDING                   COST                       QUESTIONED COSTS                  POSITION               BUDGET
                                          AVOIDANCE                                                                                 IMPACT
           (A)             (B)            (C)       (D)          (B)         (F)       (G)        (H)           (I)                    (J)
                           Title         One      Recurring   Questioned   Unsup-    Unre-       Total       C=Concur                Y=Yes
                                         Time     Amount                   ported    solved   (E)+(F>+(G)    N=Noncon                N=No
                                                  PerYear                                                     U=Undec
                  Life insurance
                  withholding was
                  inaccurate


           TOTALS-ALL FINDINGS                                                                              ::.....:,   ;   .. :




           6. Remarks:

           Condition:

           The Savannah River Operations Office did not withhold enough from one employee's
           salary to cover the premium for the employee's life insurance. Moreover, withholdings
           for two additional employees were also incorrect but these errors were beyond the
           Department's control.
08/19/05   08:43 FAX 301 903 4656              CAPITAL REGION             - STEPHANIE            [Z007




           Cause:

           Due to an administrative error, information from the employee's
           SF-2817 - Federal Employee's Group Life Insurance (FEGLI) was recorded incorrectly.

           Effect: The error appeared to be a simple oversight.



           7. Contractor:   None                      10. Approvals:
           8. Contract No.:                           Division Director/Date: _
           9. Task Order No.:                         Technical Advisor & Date          &fLA      7
 08/19/05        08:44 FAX 301 903 4656                            CAPITAL REGION                 -   STEPHANIE     .             008
                                               Office of the Inspector General (OIG)
                                         Audit Project Office Summary (APS)
                                                                                                                             Page 1
Report run on:                     August 18,        2005 8:28 AM


  Audit#: A05HQ002                Ofc:   CGA     Title: AGREED UPON PROCEDURES FEDERAL PAYROLL REVIEW

                                                             **** Milestones ****
                                                Planned            End of Survey        Revised           Actual


   Entrance Conference:......                  12-APR-05                              28-APR-05         28-APR-05

   Survey: ..................
   Draft Report:............
   Completed (With Report):.                   30-SEP-05                                                29-JUL-05       (R    )
      --------- Elapsed Days:                         171                                                 92
                                                                                            Elap. Less Susp:
   Date Suspended:                                                Date Terminated:
   Date Reactivated:                                            Date Cancelled:
   DaysSuspended(Cur/Tot):                       (             )Report Number:        OAS-L-05-10
   Rpt Title:                             Report Type:                                LTR   LETTER REPORT
   AGREED-UPON PROCEDURES FOR FEDERAL PAYROLL


                                                ****   Audit Codes and Personnel ****
   Class:    FIN FINANCIAL
   Function: 001 BUDGET AND FINANCE
   MgtChall:     Not Found
                                                                               AD:    403    HASS
   Site:           MRA     MULTI-REGION AUDIT
                                                                              AIC:    81     BRUNDAGE
   SecMiss:.CMT            CORPORATE MANAGEMENT
                                                                         Team Ldr:    256   MILLIRON
   Preslnit: IFP           IMPROVED FINANCIAL P                          Tech Adv:    833    RUBB

                                                     **** Task Information ****

         Task No:
         Task Order Dt:                                           CO Tech. Rep:
         Orig Auth Hrs:                                           Orig Auth Costs:
         Current Auth:                                            Current Auth Cost:
         Tot Actl IPR Hr:                                         Tot Actl Cost:


                                                        ****      Time Charges ****

                       Emp/Cont Name             Numdays                Last Date
                       LUBECKE,     W                       0.5         14-MAY-05
                       DZARA, C                             1.3         06-AUG-05
                       MILLIRON, B                          9.0         06-AUG-05
                       BRUNDAGE,     L                  40.3            06-AUG-05
                         Total:                         51.1
08/19/05   08:44 FAX 301 903 4656             CAPITAL REGION               -4 STEPHANIE              o009




                         AUDIT DATABASE INFORMATION SHEET



           Project No.: A05HQ002

           Title of Audit: Agreed-Upon Procedures for Federal Payroll

           Report No.Date: OAS-L-05-10           J•.2•, 4.35"

           Management Challenge Area: None

           Presidential Mgmt Initiative: Improve Financial Performance

           Secretary Priority/Initiative: Corporate Management

           Program Code: ME

           Location/Sites:

           Washington, DC             Germantown, MD
           Morgantown, WV             Albuquerque, NM
           Richland, WA               Idaho Falls, ID
           Aiken, SC
           Western Area Power Administration in Lakewood, CO
           Southeastern Power Administration in Elberton, GA
           Southwestern Power Administration in Jonesboro, AR

           Finding Summary:

           Due to an administrative errorby the Savannah River Operations Office, one Savannah
           River employee's withholding under the Federal Employee's Group Life Insurance
           (FEGLI) program was inaccurate. In addition, there were two employees whose life
           insurance and retirement withholdings that had miscalculations and rounding errors that
           were caused by the Defense Finance and Accounting Service (DFAS). These errors weie
           minor and outside of the Department's control.

           We referred the error to the Director of Human Resources Management and Development
           Division at the Savannah River Operations Office, who indicated that the error would be
           corrected in a manner that would not impact the employee.

           Keywords:

           Payroll
           Withholdings and Contributions
           Savannah River
08/19/05   08:44 FAX 301 903 4656           CAPITAL REGION   -. STEPHANIE   91010




           DFAS (Defense Finance and Accounting Service)
           Agree-upon Procedures
           Office of Management and Budget (OMB)
